No. 20-1151
IN THE

Supreme Court of the United States
LIBERTARIAN PARTY OF ERIE COUNTY, et al.,
Petitioners,
v.
ANDREW M. CUOMO, Individually and as Governor
of the State of New York, et al.,
Respondents.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies upon penalty of
perjury that all parties required to be served, as listed below, have been served with
a copy of the accompanying Letter on May 29, 2021, and that all parties have
consented to service by electronic mail:
Michael Kuzma
michaelkuzmaesq@gmail.com
Counsel for Petitioners
Executed May 29, 2021
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

